TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Corrective Actions to Address the
                      Disaster Recovery Material Weakness
                              Are Being Completed



                                           June 27, 2011

                                Report Number: 2011-20-060




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


CORRECTIVE ACTIONS TO ADDRESS                         WHAT TIGTA FOUND
THE DISASTER RECOVERY MATERIAL
                                                      Corrective actions for addressing the disaster
WEAKNESS ARE BEING COMPLETED                          recovery material weakness are being
                                                      adequately completed for six of the seven

Highlights                                            components. The IRS 1) created two disaster
                                                      recovery Internal Revenue Manuals,
                                                      2) developed a disaster recovery training
Final Report issued on June 27, 2011                  curriculum, 3) prioritized the recovery order of its
                                                      systems based on the criticality of the business
Highlights of Reference Number: 2011-20-060           processes the systems supported, 4) is creating
to the Internal Revenue Service Chief                 a program for performing reviews of its disaster
Technology Officer.                                   recovery efforts and activities, 5) prepared,
                                                      exercised, and tested disaster recovery plans for
IMPACT ON TAXPAYERS
                                                      all of its systems, and 6) performs ongoing
Disaster recovery planning is a coordinated           analyses of its recovery capabilities to identify
strategy involving plans, procedures, and             gaps in its ability to meet business recovery
technical measures that enable the recovery of        requirements and to prioritize corrective actions.
information systems, computer operations, and
                                                      During the course of the audit, TIGTA auditors
data after a disruption. The Internal Revenue
                                                      recommended several changes to the corrective
Service (IRS) is completing corrective actions to
                                                      actions that the IRS completed, or was in the
address a material weakness in its disaster
                                                      process of completing, prior to issuance of this
recovery capabilities. Effective disaster
                                                      report. Two items remain outstanding. The IRS
recovery capabilities are critical to ensuring that
                                                      does not have 1) a system for tracking whether
the IRS’s key information systems can be
                                                      employees with disaster recovery roles attend
recovered with minimal disruption to service. In
                                                      required annual training and 2) adequate metrics
addition to the IRS needing these systems to
                                                      to assess progress and track improvements in
administer the Nation’s tax system, data and
                                                      completing the corrective actions.
services provided by these systems are needed
by Congress, the Department of the Treasury,          WHAT TIGTA RECOMMENDED
tax professionals, taxpayers, and other
Government agencies.                                  TIGTA recommended that the Chief Technology
                                                      Officer ensure that the IRS develops 1) the
WHY TIGTA DID THE AUDIT                               capability to track the disaster recovery training
                                                      of employees with disaster recovery roles and
The IRS requested that TIGTA evaluate the
                                                      responsibilities and 2) metrics specifically
corrective actions for addressing its disaster
                                                      designed to assess progress and track
recovery material weakness. In March 2005, the
                                                      improvements in completing the disaster
IRS declared its disaster recovery program a
                                                      recovery corrective actions.
material weakness in accordance with the
Federal Managers’ Financial Integrity Act of          In its response to the report, the IRS agreed with
1982. The IRS prepared a corrective action plan       TIGTA’s recommendations. The IRS plans to
that divided the material weakness into seven         1) develop a formal process and monitoring
components and contained corrective actions for       system to track the completion of disaster
each of these components. The last of the             recovery training by employees who have
corrective actions is scheduled to be completed       disaster recovery roles and responsibilities and
in December 2011. The objective of the audit          2) design metrics to assess the progress of the
was to evaluate the IRS’s progress in                 disaster recovery program.
completing its corrective actions for addressing
the disaster recovery material weakness.
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 27, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Corrective Actions to Address the Disaster
                              Recovery Material Weakness Are Being Completed
                              (Audit # 201020024)

 This report presents the results of our review of the Cybersecurity organization’s1 disaster
 recovery activities. The overall objective was to evaluate the Internal Revenue Service’s (IRS)
 corrective actions for addressing its disaster recovery material weakness.2 This review was
 requested by the Cybersecurity organization. This review also addresses the major management
 challenge of Security of the IRS and is part of our statutory requirements to annually review the
 adequacy and security of IRS technology. Management’s complete response to the draft report
 is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.




 1
  See Appendix V for a glossary of terms.
 2
  In March 2005, the IRS declared its disaster recovery program a material weakness in accordance with the Federal
 Managers’ Financial Integrity Act of 1982.
                                Corrective Actions to Address the Disaster Recovery
                                      Material Weakness Are Being Completed




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Corrective Actions Are Being Adequately Completed for Six of the
          Seven Components of the Disaster Recovery Material Weakness ............... Page 5
                    Recommendation 1:........................................................ Page 13

          Improvements Are Needed in the Corrective Actions for the Metrics
          Component of the Disaster Recovery Material Weakness ........................... Page 14
                    Recommendation 2:........................................................ Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – National Institute of Standards and Technology
          Publications ................................................................................................... Page 22
          Appendix V – Glossary of Terms ................................................................. Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 26
        Corrective Actions to Address the Disaster Recovery
              Material Weakness Are Being Completed




                  Abbreviations

ECC         Enterprise Computing Center
IRS         Internal Revenue Service
IT          Information Technology
ITDRO       Information Technology Disaster Recovery Organization
MITS        Modernization and Information Technology Services
NIST        National Institute of Standards and Technology
SP          Special Publication
TSCC        Toolkit Suite With Command Centre
                           Corrective Actions to Address the Disaster Recovery
                                 Material Weakness Are Being Completed




                                              Background

To carry out its mission, the Internal Revenue Service (IRS) is heavily dependent on an extensive
network of computer systems spread across the country. During Fiscal Year 2009, the IRS
reported that its computer systems processed more than 236 million returns, provided nearly
127 million refunds, collected more than $2.3 trillion, received more than 296 million visits to its
web sites, and received about 95 million electronically filed individual income tax returns. In
addition to the IRS needing these systems, data and services provided by the systems are also
needed by Congress, the Department of the Treasury, tax professionals, taxpayers, and other
Government agencies. During Fiscal Year 2010, the IRS reported that its computer network
contains about 131,000 workstations, 4,500 infrastructure and application servers, 310 midrange
servers, and 18 mainframe computers.
Significant events such as the terrorist attacks on September 11, 2001, and Hurricane Katrina in
August 2005 emphasize the need for organizations to have plans in place that will ensure
essential operations can continue during a wide range of emergencies. Attacks and threats
against IRS employees and facilities have risen steadily in recent years, highlighted by the
February 2010 attack on an IRS facility in Austin, Texas. Disaster recovery is an organization’s
ability to respond to a disruption in services by implementing a plan to restore critical business
functions within the stated disaster recovery goals. It is a coordinated strategy involving plans,
procedures, and technical measures that enable the recovery of information systems, computer
operations, and data. Disaster recovery plans1 define the resources, actions, tasks, and data
required to recover information systems. Effective disaster recovery capabilities are critical to
ensuring that the IRS’s key information systems needed to ensure the continuation of the
Nation’s tax system can be recovered with minimal disruption to service.
Federal disaster recovery requirements exist on several levels. The Federal Information Security
Management Act of 20022 requires that Federal agencies develop, document, and implement an
agency-wide information security program that includes plans and procedures to ensure
continuity of operations for information systems that support the operations and assets of the
agency. The Office of Management and Budget requires agencies to ensure that disaster
recovery planning capabilities are in place and to provide for continuity of support and disaster
recovery planning for their computer systems. Pursuant to its responsibilities under the Federal
Information Security Management Act, the National Institute of Standards and Technology
(NIST) issues guidance that requires agencies to develop and maintain a disaster recovery


1
  Information technology disaster recovery planning is also referred to as contingency planning. Because
universally accepted definitions are not available, throughout this report we used the term disaster recovery.
2
  44 U.S.C. §§ 3541 – 3549.
                                                                                                                 Page 1
                            Corrective Actions to Address the Disaster Recovery
                                  Material Weakness Are Being Completed



program for their information systems to ensure that measures are in place to recover systems
after a disruption. NIST guidance outlines the process for developing and maintaining effective
disaster recovery plans. The Department of the Treasury requires bureaus to develop and
implement a robust, cost-effective Information Technology (IT) security program that includes
disaster recovery planning.
Examples of the key components that make up disaster recovery programs include 1) assessing
the criticality and sensitivity of computerized operations and identification of supporting
resources, such as developing a business impact analysis; 2) taking steps to prevent and
minimize potential damage and interruption, such as establishing data backup processes;
3) developing comprehensive disaster recovery plans; 4) conducting periodic testing of disaster
recovery plans; and 5) maintaining disaster recovery plans to keep them up to date.
In response to an audit recommendation made by the Treasury Inspector General for Tax
Administration, the IRS, in March 2005, declared its disaster recovery program a material
weakness in accordance with the Federal Managers’ Financial Integrity Act of 1982.3 To
remediate this weakness, a Disaster Recovery Program Director was appointed in late
Calendar Year 2005, and in October 2006 the IRS added disaster recovery into its overall
Computer Security Material Weakness Plan. In October 2007, the IRS formed the Information
Technology Disaster Recovery Organization (ITDRO) within the Modernization and Information
Technology Services (MITS) organization’s Cybersecurity office. The new office was formed to
serve as a single focal point to provide oversight, accountability, and responsibility for
developing and maintaining the IRS’s enterprise disaster recovery strategy and for bridging the
gap between business owners and IT operational staff. The office has a staff of about
50 employees. In Fiscal Year 2010, the MITS organization initiated a reorganization that will
reassign the responsibilities of the ITDRO to two divisions within the Cybersecurity
organization.
This review was performed at the ITDRO offices in Chamblee, Georgia, during the period
June 2010 through March 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




3
    31 U.S.C. §§ 1105, 1113, 3512 (2000).
                                                                                            Page 2
                           Corrective Actions to Address the Disaster Recovery
                                 Material Weakness Are Being Completed




                                      Results of Review

As part of its disaster recovery remediation efforts, the ITDRO reported the following major
program enhancements from Fiscal Year 2008 through Fiscal Year 2010:
    •    Created two disaster recovery Internal Revenue Manuals.
    •    Developed a disaster recovery training curriculum, conducted outreach and awareness
         sessions, and published disaster recovery articles.
    •    Completed an enterprise business impact analysis that evaluated more than 600 business
         processes.
    •    Established application recovery priorities based on critical business processes4 and
         operational impacts.
    •    Performed indepth assessments and gap analyses of business processes and enterprise
         disaster recovery capabilities.
    •    Developed disaster recovery plans for 161 applications and 23 general support systems.
    •    Updated all disaster recovery plans.
    •    Performed more than 400 disaster recovery tests and exercises.
    •    Established a documented and repeatable disaster recovery testing process including
         expectations, requirements, and templates.
    •    Tested disaster recovery plans for critical applications based on Department of the
         Treasury and NIST requirements.
    •    Was provided funding specifically for improving the IRS’s disaster recovery capabilities
         in Fiscal Years 2010 and 2011.
Figure 1 describes the corrective actions for the seven components that comprise the disaster
recovery material weakness. The ITDRO is responsible for managing the completion of these
corrective actions.




4
 The IRS identified 18 critical business processes, such as processing remittances and processing tax returns, and
determined the critical business processes that each of its systems support.
                                                                                                             Page 3
                         Corrective Actions to Address the Disaster Recovery
                               Material Weakness Are Being Completed



                    Figure 1: Disaster Recovery Material Weakness
                         Components and Corrective Actions

  Components                                   Corrective Actions                                     Status
Policy              1.    Develop and maintain an enterprise-wide Disaster Recovery Internal         Completed
                          Revenue Manual specifically addressing business impact analysis,            10/1/08
                          testing, exercise, and plan development guidance and templates.
                    2.    Conduct outreach and awareness sessions to ensure the Internal
                          Revenue Manual is incorporated into day-to-day operations.
                    3.    Develop an enterprise-wide disaster recovery course curriculum.
Business Impact     1.    Develop and maintain a prioritized list of critical IT systems that        Completed
Analysis                  support critical business processes and establish site-based restoration    10/1/08
                          priority documents.
                    2.    Conduct gap analyses surrounding the ability to restore via the critical
                          business process.
                    3.    Develop an analysis comparing the recovery time objective and
                          recovery point objective of both the MITS organization and Business
                          Operating Divisions.
                    4.    Develop an infrastructure spend plan based on the analyses mentioned
                          above.
Disaster Recovery   1.    Complete internal auditing of the disaster recovery efforts to ensure      Due Date
Compliance                accuracy and completeness as it relates to day-to-day operations and        7/1/11
                          efforts to mitigate the material weaknesses and audits.
Disaster Recovery   1.    Develop and maintain disaster recovery plans associated with general       Completed
Plans                     support systems, to include all components that support critical            12/28/10
                          applications.
                    2.    Establish and maintain data and processing backup-recovery
                          capabilities and ensure maximum allowable outage times meet the
                          recovery time objectives of the applications being supported.
Disaster Recovery   1.    Develop baseline expectations, requirements, and templates for             Completed
Plan Test and             disaster recovery plans and for disaster recovery plan tests and            10/1/08
Exercise                  exercises.
                    2.    Identify roles and responsibilities of the MITS organization and
                          Business Operating Divisions involved in the testing.
                    3.    Identify the frequency and type of testing required and reporting
                          requirements.
                    4.    Conduct tabletop, functional, and end-to-end disaster recovery testing
                          for critical applications based upon direction from the Department of
                          the Treasury and the Federal Information Security Management Act.



                                                                                                        Page 4
                             Corrective Actions to Address the Disaster Recovery
                                   Material Weakness Are Being Completed




   Components                                      Corrective Actions                                  Status
 Technical              1.    Perform annual system risk assessments.                                  Due Date
 Assessment                                                                                             7/31/11
                        2.    Develop a true redundancy and resiliency analysis. Based on the
                              critical business processes, develop a site-based restoration
                              vulnerabilities analysis.
                        3.    Create a recovery point objective and recovery time objective analysis
                              and gain concurrence from both the Business Operating Divisions and
                              the MITS organization.
                        4.    Incorporate a technical assessment tool that will provide an
                              infrastructure impact analysis in the event of a disaster.
 Material Weakness      Establish and maintain collection and reporting of metrics to assess           Due Date
 Area Metrics           progress and track improvements in all component activity                      12/31/11
                        implementations over time.

Source: The IRS Computer Security Material Weakness Plan for Fiscal Year 2010.

 Corrective Actions Are Being Adequately Completed for Six of the
 Seven Components of the Disaster Recovery Material Weakness
 The IRS is adequately completing corrective actions for the 1) Policy, 2) Business Impact
 Analysis, 3) Disaster Recovery Compliance, 4) Disaster Recovery Plans, 5) Disaster Recovery
 Plan Test and Exercise, and 6) Technical Assessment components of the disaster recovery
 material weakness.

 Corrective actions for the Policy component are being adequately completed
 The Policy component contained three corrective actions that the IRS closed in October 2008.
 The three corrective actions are being adequately completed except for one remaining item in the
 third corrective action below.
 Corrective Action 1 – Develop and maintain an enterprise-wide Disaster Recovery Internal
 Revenue Manual specifically addressing business impact analysis, testing, exercise, and plan
 development guidance and templates.
 Disaster Recovery Internal Revenue Manual 10.8.60, Information Technology Disaster Recovery
 Policy and Guidance; Interim Disaster Recovery Internal Revenue Manual 10.8.62, Information
 Technology Contingency Plan and Disaster Recovery Testing, Training and Exercise Program;
 and IRS application and general support system disaster recovery plan templates were complete




                                                                                                          Page 5
                             Corrective Actions to Address the Disaster Recovery
                                   Material Weakness Are Being Completed



and consistent with NIST Special Publication (SP) 800-34,5 NIST SP 800-84, and Treasury
Directive Publication 85-01, Treasury Information Technology Security Program.
Corrective Action 2 – Conduct outreach and awareness sessions to ensure the Internal Revenue
Manual is incorporated into day-to-day operations.
The ITDRO used several methods to conduct disaster recovery outreach and awareness. They
made presentations at each of the campuses and computing centers, distributed brochures and
posters during these visits, and published articles in several different IRS electronic newsletters.
The outreach and awareness methods used by the IRS and the disaster recovery topics presented
were complete and consistent with outreach and awareness methods and disaster recovery
processes recommended by guidance in NIST SP 800-34 and NIST SP 800-50.
Corrective Action 3 – Develop an enterprise-wide disaster recovery course curriculum.
The IRS has a curriculum consisting of about 30 disaster recovery training courses that cover the
various aspects of disaster recovery. These courses adequately covered disaster recovery topics
appearing in NIST SP 800-34 and in the IRS disaster recovery material weakness plan. Course
reviews prepared by attendees did not indicate any concerns with the content of the courses. The
IRS training delivery methods were consistent with methods suggested in NIST SP 800-50.
However, the ITDRO is not able to track whether employees with disaster recovery roles attend
required annual disaster recovery training. NIST SP 800-34 requires that employees with
disaster recovery roles be trained annually. The IRS disaster recovery manual requires
employees with disaster recovery responsibilities to attend annual disaster recovery training.
The IRS’s electronic training system tracks each employee’s training, but it does not track
whether employees have disaster recovery roles and attended disaster recovery training. The
ITDRO told us that they were aware of the need to track the training of employees with disaster
recovery roles and that the development of a tracking capability is included in their recently
funded training plan. Until this capability is implemented, the IRS will not be able to ensure that
employees are attending required annual disaster recovery training.
Management Action: During the course of the audit, we recommended to the ITDRO several
changes to the first and third corrective actions, which it completed or was in the process of
completing prior to us issuing this report.

Corrective actions for the Business Impact Analysis component were adequately
completed
The Business Impact Analysis component contained four corrective actions that the IRS closed
in October 2008. All four corrective actions were adequately completed. A business impact
assessment is an ongoing activity within a disaster recovery organization, and business impact

5
    The titles of NIST publications are shown in Appendix IV.
                                                                                              Page 6
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



analysis results are continuously updated and refined. The IRS has developed a repeatable
business impact analysis process that provides updated and current information on the impacts of
a disaster or disruption. In October 2008, the ITDRO reported the results of its initial business
impact analysis efforts. The ITDRO expects to complete an updated business impact analysis
report in June 2011.
Corrective Action 1 – Develop and maintain a prioritized list of critical IT systems that support
critical business processes and establish site-based restoration priority documents.
The ITDRO established and maintained a prioritized list of systems that support critical business
processes and established site-based restoration priority documents in accordance with business
impact analysis guidance recommended by NIST SP 800-34. To begin the process of creating a
prioritized list of applications, the ITDRO identified 18 critical business processes and
determined the critical business processes each application supported. The ITDRO then
developed a methodology for scoring each application. The scoring system assigned points to
each critical business process and to each application’s recovery time objective. The more
important critical business processes and the more time-critical recovery time objectives were
assigned more points than those deemed less critical. The result ranked applications in order,
starting with those with the most significant impact (highest scores) to those with the least
impact (lowest scores).
Corrective Action 2 – Conduct gap analyses surrounding the ability to restore via the critical
business processes.
The ITDRO performed an analysis of application actual recovery times and the actual restoration
times of the critical business processes those applications support. The analysis was limited to
62 applications residing at the IRS’s three computing centers. Application recovery timeline
diagrams have been prepared measuring the ability to recover the applications and restore the
critical business processes supported by those applications. The results of the analysis were
presented in terms of recovery situation assessments by computing center, application, and
critical business process. Analysis updates following infrastructure upgrades have shown a
steady reduction in restoration times of critical business processes. For example, the analysis
indicates that the restoration time of the processing tax returns critical business process has been
reduced from about 60 days to between 5 and 7 days. While these analyses have been conducted
for the 62 applications at the three computing centers, future analyses will include approximately
100 remaining applications that support critical business processes.
Corrective Action 3 – Develop an analysis comparing the recovery time objective and recovery
point objective of both the MITS organization and Business Operating Divisions.
The IRS’s business impact analysis included an analysis to identify gaps between the recovery
time objectives of applications owned by the Business Operating Divisions and the recovery time
objectives of the MITS infrastructure. The purpose of the analysis was to determine whether
current MITS organization recovery strategies address Business Operating Division requirements

                                                                                             Page 7
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



for application recovery. Each application underwent this analysis to produce a summary of
potential gaps in the IRS’s ability to recover applications within their stated time objectives. The
analysis compared the recovery time objective of applications to the recovery time objective of
the primary general support system in which the application resides. If the recovery time
objective of the general support system was not sufficient to recover the application within its
recovery time objective, a potential gap was identified. Highlighting potential gaps between
requirements driven by Business Operating Division application recovery times and general
support system recovery times can enable both the Business Operating Divisions and the
MITS organization to prioritize and address deficiencies in disaster recovery capabilities. The
gap analysis revealed significant deficiencies in the IRS’s ability to quickly recover even the
most critical tax processing systems. As of October 2008, gaps of 60 days or more were
identified for some systems. Other gaps showed that some systems could not be recovered at all
at an offsite location.
Since the initial gap analysis results in October 2008, the ITDRO has undertaken efforts to close
the gaps between the Business Operating Division and MITS organization recovery time
objectives. Under the Technical Assessment corrective action, the ITDRO continues to assess
the IRS’s IT infrastructure to identify, prioritize, and implement improvements in capacity and
equipment in an effort to improve disaster recovery capabilities and shorten recovery times for
applications and critical business processes. The ITDRO is currently conducting a Disaster
Recovery Capabilities Analysis to determine the actual impacts of general support system
failures on the applications that support the critical business processes. This analysis will
provide information of the effect on the business operation if any part of the supporting systems
is disrupted. Once the analysis is complete in June 2011, the results will be presented to the
Business Operating Divisions, which will use the information to adjust their application recovery
time objectives or provide resources to improve disaster recovery capabilities for the systems
that support their applications and business operations.
Corrective Action 4 – Develop an infrastructure spend plan based on the analyses mentioned
above.
Information about recovery capabilities identified in the gap analyses formed the basis for the
infrastructure spend plan. The ITDRO identified short-term infrastructure needs to address
mainframe enhancements to improve recovery times of applications that support the most critical
returns and remittance processing business processes. In Fiscal Year 2010, for the first time,
funding was provided specifically for improving the IRS’s disaster recovery capabilities. Of a
$9 million allotment, $5 million was expended in Fiscal Year 2010 for procuring equipment and
storage capacity to improve recovery times of the most critical mainframe core tax processing
systems. The remaining $4 million will carry over to Fiscal Year 2011. For Fiscal Year 2011,
an additional $9 million has been approved for additional improvements that will go beyond
mainframe improvements to include disaster recovery improvements for applications that


                                                                                             Page 8
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



provide overall support to operational functions. The IRS’s Fiscal Year 2012 Budget Request
includes $12 million to make further improvements in the IRS’s disaster recovery capabilities.

Corrective actions for the Disaster Recovery Compliance component are being
adequately completed
The IRS is in the process of completing its corrective actions for the Disaster Recovery
Compliance component and expects to close it by July 2011. The corrective actions the IRS
completed during the time of our audit fieldwork are being adequately completed.
Corrective Action 1 – Complete internal auditing of the disaster recovery efforts to ensure
accuracy and completeness as it relates to day-to-day operations and efforts to mitigate the
material weaknesses and audits.
The ITDRO developed a manual that provides guidance, procedures, and methodology for
performing compliance reviews and audits that verify and validate whether disaster recovery
planning processes and activities comply with requirements. The manual contains auditing
procedures broken down into the following seven sections:
   •   Initiate and plan the program.
   •   Gather data for the project.
   •   Prepare for the compliance review.
   •   Conduct the compliance review.
   •   Consolidate findings for the draft report.
   •   Issue final report.
   •   Follow up.
The manual was generally complete and consistent with guidance recommended in
NIST SP 800-115 and contained in the Treasury Inspector General for Tax Administration audit
manual.
Management Action: During the course of the audit, we recommended to the ITDRO several
changes to its corrective actions which it was in the process of completing prior to us issuing this
report.

Corrective actions for the Disaster Recovery Plans component were adequately
completed
The Disaster Recovery Plans component contained two corrective actions that the IRS closed in
December 2010.


                                                                                               Page 9
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



Corrective Action 1 – Develop and maintain disaster recovery plans associated with general
support systems, to include all components that support critical applications.
The ITDRO created a template for preparing application disaster recovery plans and another
template for preparing general support system disaster recovery plans. The templates were
complete and consistent with requirements in NIST SP 800-34.
The IRS has developed procedures for preparing disaster recovery plans, has prepared disaster
recovery plans for all of its systems, and reviews and updates them on an annual basis as
required by NIST SP 800-34.
Corrective Action 2 – Establish and maintain data and processing backup-recovery capabilities
and ensure maximum allowable outage times meet the recovery time objectives of the
applications being supported.
The IRS has a process in place whereby the ITDRO works with system owners to establish the
systems’ recovery time objectives, review the recovery processes, and identify system upgrades
that can decrease actual recovery times. The process is consistent with the contingency planning
process steps in NIST SP 800-34. The disaster recovery plan templates for applications and
general support systems contain a section that requires insertion of the system recovery time
objectives. IRS forms used to update disaster recovery plans ask for updated recovery time
objectives. The Disaster Recovery Test Plan has a section that analyzes and compares actual
recovery times of the systems included in the test to their recovery time objectives.
The IRS has recently installed system upgrades that reduced the recovery time objectives for
certain applications from as much as 30–60 days to 5–7 days. However, this still exceeds
recovery time objectives that range, depending on the application, from 12 to 36 hours. The
IRS’s efforts to address these gaps are covered in this report in the Business Impact Analysis and
the Technical Assessment component sections.

Corrective actions for the Disaster Recovery Plan Test and Exercise component
were adequately completed
The Disaster Recovery Plan Test and Exercise component contained four corrective actions that
the IRS closed in October 2008.
Corrective Action 1 – Develop baseline expectations, requirements, and templates for disaster
recovery plans and disaster recovery plan tests and exercises.
Disaster recovery policies and procedures, disaster recovery plan preparation guidance, and
testing and exercising guidance in 1) Internal Revenue Manual 10.8.60, 2) Interim Internal
Revenue Manual 10.8.62, 3) IRS application and general support system disaster recovery plan
templates, and 4) IRS exercising and testing templates were complete and consistent with
NIST SP 800-34, NIST SP 800-53, NIST SP 800-84, and Treasury Directive Publication 85-01
requirements.

                                                                                          Page 10
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



Corrective Action 2 – Identify roles and responsibilities of the MITS organization and Business
Operating Divisions involved in the testing.
We reviewed all disaster recovery roles and responsibilities defined in IRS disaster recovery
manuals and in the roles and responsibilities manual, not just roles and responsibilities for
disaster recovery testing, and found that they were generally complete and consistent with
NIST SP 800-12, NIST SP 800-16, NIST SP 800-34, NIST SP 800-37, and Treasury Directive
Publication 85-01 requirements.
Corrective Action 3 – Identify the frequency and type of testing required and reporting
requirements.
Testing frequency, type of tests required, and reporting requirements defined in IRS disaster
recovery manuals were complete and consistent with NIST SP 800-34, NIST SP 800-53,
NIST SP 800-84, and Treasury Directive Publication 85-01 requirements. For systems whose
lack of availability would have only a limited adverse impact on the organization, the IRS
requires that some of these systems receive a higher level of testing than is required by NIST and
the Department of the Treasury requirements.
Corrective Action 4 – Conduct tabletop, functional, and end-to-end disaster recovery testing for
critical applications based upon direction from the Department of the Treasury and the Federal
Information Security Management Act.
Because the IRS closed this corrective action in October 2008, we reviewed disaster recovery
exercising and testing during the Federal Information Security Management Act’s 2008 reporting
cycle and found that all systems received the levels of testing required by NIST SP 800-34,
NIST SP 800-53, NIST SP 800-84, and Treasury Directive Publication 85-01 requirements,
whereby systems whose lack of availability would have a more serious impact on the
organization received more extensive testing.
Management Action: During the course of the audit, we recommended to the ITDRO several
changes to the second corrective action, which it completed prior to us issuing this report.

Corrective actions for the Technical Assessment component are being
adequately completed
The Technical Assessment component contains four corrective actions, and its original closure
date has been extended from October 2010 to July 2011. Due to the ITDRO expanding the scope
of its original corrective action, in September 2010, the Associate Chief Information Officer,
Cybersecurity, executive owner of the disaster recovery material weakness, granted the ITDRO
an extension to July 2011. The previous work efforts have expanded from a computing center
focus to include campus assets. The expansion also takes into consideration people, processes,
and technology considerations in a disruption or disaster. The corrective actions the IRS
completed during the time of our audit fieldwork are being adequately completed.

                                                                                          Page 11
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



Corrective Action 1 – Perform annual system risk assessments.
The ITDRO conducts ongoing system risk assessments while other IRS programs perform
annual as well as ongoing system risk assessments. Examples of these activities include, but are
not limited to: annual Federal Information Security Management Act reviews including
certification and accreditations, the enterprise continuous monitoring program, the disaster
recovery plan testing program, ongoing system vulnerability assessments and scans, penetration
testing and source code analysis, the Critical Infrastructure Protection program, and ongoing
disaster recovery business impact and technical assessments.
Corrective Action 2 – Develop a true redundancy and resiliency analysis. Based on the critical
business processes, develop site-based restoration vulnerabilities analysis.
The ITDRO began its efforts to develop a true redundancy and resiliency analysis with the
Martinsburg Business Resiliency Analysis in 2009. The analysis focused on a disaster scenario
at the Enterprise Computing Center (ECC) in Martinsburg, West Virginia, and the ability to
recover the functionality of impacted applications and restore related critical business processes
at the ECC in Memphis, Tennessee. The analysis identified deficits between ECC-Martinsburg
and ECC-Memphis capabilities. For example, recovery times at ECC-Memphis for 15 key
ECC-Martinsburg systems ranged from 3 days to more than 60 days and that other systems could
not be recovered at ECC-Memphis. Subsequent infrastructure improvements during Fiscal
Year 2010 identified in the infrastructure spend plan have resulted in reductions in the initial
application recovery times down to the 5–7 day range. Since the initial ECC-Martinsburg
analysis, the ITDRO has established the Disaster Recovery Capability Analysis to complete the
analysis of applications supporting critical business processes at the computing centers and
non-computing center locations. Through this project, the ITDRO is identifying and
implementing IT technologies to further reduce the restoration times to hours based on business
requirements.
Corrective Action 3 – Create a recovery point objective and recovery time objective analysis and
gain concurrence from both the Business Operating Divisions and the MITS organization.
The analysis of recovery point and recovery time objectives is still in progress and has a target
completion date of June 2011. As part of the business impact analysis workshops, each business
unit was provided their specific recovery point and recovery time objectives for their review and
approval. The Disaster Recovery Capability Analysis targeted for completion in June 2011 will
provide the business units with more accurate information about current infrastructure
capabilities and the time required to recover applications.
As of February 2011, the ITDRO has established the following recovery times for 97 of the
162 applications that support the critical business processes. The 97 applications include
44 (68 percent) of the 65 applications that support the top 2 critical business processes of returns
and remittance processing.


                                                                                            Page 12
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



   •   24 percent (23 applications) in 3 days or less.
   •   25 percent (24 applications) in 3–5 days.
   •   12 percent (12 applications) in 6–29 days.
   •   39 percent (38 applications) in 30 days or more.
The Business Operating Divisions will use the Capability Analysis information to reevaluate
their recovery time objectives to better align with technical capabilities or to consider providing
funding for infrastructure improvements that will result in recovery times that meet their
business needs.
Corrective Action 4 – Incorporate a technical assessment tool that will provide an infrastructure
impact analysis in the event of a disaster.
To accomplish this corrective action, the ITDRO is deploying a web-based system, the Toolkit
Suite with Command Centre (TSCC). The TSCC system is a decision-support tool and plan
repository for disaster recovery. When a disaster occurs, the tool (when fully implemented) will
identify the people, processes, and systems that have been impacted. It will provide critical
information for decision making during disaster events and exercises, identify restoration
priorities, and determine the disaster recovery plans that should be activated. Its contents will
serve as the sole source for recovering, relocating, or rebuilding IRS business processes and
supporting systems. This tool will be synchronized with and receive employee data from
personnel and timekeeping systems, as well as systems, hardware, and server data from IT
inventory systems.
The TSCC is a multi-modular system that will be implemented in phases. Full implementation is
expected by Fiscal Year 2013. Currently, disaster recovery plans, incident management plans,
and evacuation plans have been loaded into the system and it has been used in the most recent
disaster recovery tests at the computing centers. At present, there are about 3,000 TSCC users
across the IRS.
Management Action: During the course of the audit, we recommended a change to the ITDRO
for the first corrective action, which it completed prior to us issuing this report.

Recommendation
Recommendation 1: The Chief Technology Officer should ensure that the capability is
developed to track the disaster recovery training of employees with disaster recovery roles and
responsibilities.
       Management’s Response: The IRS agreed with our recommendation. The IRS
       plans to develop a formal process and monitoring system to track the completion of


                                                                                            Page 13
                      Corrective Actions to Address the Disaster Recovery
                            Material Weakness Are Being Completed



       disaster recovery training by employees who have disaster recovery roles and
       responsibilities.

Improvements Are Needed in the Corrective Actions for the Metrics
Component of the Disaster Recovery Material Weakness
The IRS is in the process of developing its corrective action for the Metrics component and
expects to close it by December 2011. Improvements to corrective actions are needed for
metrics the IRS is developing for each component, except for the Disaster Recovery Plan Test
and Exercise component.
Corrective Action 1 – Establish and maintain collection and reporting of metrics to assess
progress and track improvements in all component activity implementations over time.
The IRS provided us with its ongoing operational metrics and planned metrics. These metrics
are designed to report on the various activities within the ITDRO for a given reporting period.
However, the IRS does not have metrics specifically designed to assess progress and track
improvements in the following five components of the disaster recovery material weakness over
time.
   •   Policy component.
   •   Business Impact Analysis component.
   •   Disaster Recovery Compliance component.
   •   Disaster Recovery Plans component.
   •   Technical Assessment component.
For the Policy component, the IRS did not have metrics for the corrective action on conducting
outreach and awareness sessions. For the corrective action on developing an enterprise-wide
disaster recovery course curriculum, while the IRS has some metrics on disaster recovery courses
created, courses delivered by the ITDRO, and attendance, it did not have metrics on the
percentage of employees with disaster recovery responsibilities that attended any of the available
IRS courses, not just courses developed by the ITDRO. This is an all-encompassing metric that
measures the extent appropriate employees attend training.
For the Business Impact Analysis component, the IRS had a metric for the number of systems
with a business impact analysis, but a more meaningful metric would be the percentage of
systems with a completed business impact analysis. For the corrective action on gap analyses,
metrics are needed, such as the percentage of systems that can be recovered within recovery time
requirements, the percentage of systems that can be recovered slightly beyond recovery time
requirements, and the percentage of systems that can be recovered significantly beyond recovery
time requirements.

                                                                                          Page 14
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



For the Disaster Recovery Compliance component, the IRS had a metric for the targeted and
actual number of reviews planned and the percentage of targeted reviews achieved. Metrics
could be created for the number and percentage of compliance audits planned and completed and
for the percentage of recommendations and corrective actions that have been implemented.
For the Disaster Recovery Plans component, the IRS had the following metrics for the corrective
action on the development and maintenance of disaster recovery plans:
   •   The targeted number and actual number of disaster recovery plans reviewed as part of
       annual Certification and Accreditation.
   •   The percentage of targeted disaster recovery plan reviews achieved.
   •   The targeted number and actual number of disaster recovery plans completed.
   •   The percentage of targeted disaster recovery plans completed.
   •   The total number of disaster recovery plans reviewed and updated for the current Federal
       Information Security Management Act cycle.
   •   The percentage of disaster recovery plans written for critical systems.
Additional metrics for this corrective action could include:
   •   The percentage of general support systems that have a disaster recovery plan.
   •   The percentage of applications that have a disaster recovery plan.
For the corrective action on establishing and maintaining data and processing backup-recovery
capabilities, metrics are needed, such as the percentage of systems that have established and
successfully tested data backup-recovery capability and the percentage of systems that have
established and successfully tested processing backup-recovery capability. In addition, for the
Technical Assessment component, metrics are needed to measure the extent to which each of the
corrective actions has been completed and the results that each has achieved.
The IRS needs to develop more specific metrics on the five components as it continues its work
on this corrective action. The creation of metrics to assess progress and track improvements in
components of the disaster recovery material weakness is required by the IRS Computer Security
Material Weakness Action Plan. In addition, NIST SP 800-55 provides guidelines on how
metrics can be used to determine the adequacy of in-place security controls, policies, and
procedures. NIST SP 800-55 can be used to develop, select, and implement system-level and
program-level metrics to indicate the implementation, efficiency, effectiveness, and impact of
security controls and other security-related activities.
NIST SP 800-55 states that metrics are usually expressed as percentages and averages and that
the process being measured must be measureable, consistent, and repeatable. One specific type
of metric cited by NIST, implementation metrics, are metrics used to demonstrate progress in

                                                                                        Page 15
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



implementing security programs, such as the percentage of systems that have approved system
security plans. The IRS could use implementation metrics to measure the extent to which the
corrective actions have been completed.
The IRS is still in the process of developing corrective actions for establishing and maintaining
metrics. Improved metrics will help to facilitate decision making, improve performance, and
increase accountability related to the completion of the disaster recovery corrective actions.

Recommendation
Recommendation 2: The Chief Technology Officer should ensure that metrics specifically
designed to assess progress and track improvements in completing the corrective actions of five
components of the disaster recovery material weakness over time are developed using guidance
contained in NIST SP 800-55.
       Management’s Response: The IRS agreed with our recommendation. The IRS
       plans to design metrics using NIST SP 800-55 to assess the progress of the disaster
       recovery program.




                                                                                           Page 16
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’s corrective actions for addressing
its disaster recovery material weakness. To accomplish our objective, we:
I.     Evaluated the effectiveness of corrective actions taken on completed components of the
       disaster recovery material weakness.
       A. For the Policy component, we:
           1. Determined whether IRS disaster recovery manuals were complete and consistent
              with Federal requirements and guidance.
           2. Reviewed the frequency and scope of outreach and awareness sessions that the
              IRS conducted to help move the manuals into day-to-day operations.
           3. Determined whether IRS disaster recovery course curriculum sufficiently covered
              the range of elements comprised in a disaster recovery program.
       B. For the Business Impact Analysis component, we:
           1. Reviewed the process used by the IRS to develop a prioritized list of critical
              systems.
           2. Determined whether the IRS completed its site-based restoration priority
              documents.
           3. Reviewed the process used by the IRS to conduct restoration gap analyses.
           4. Reviewed the IRS’s analysis of Business Operating Division and MITS
              organization recovery time objectives.
           5. Reviewed the IRS’s spend plan for reducing recovery times.
       C. For the Disaster Recovery Plan Test and Exercise component, we:
           1. Determined whether IRS baseline expectations, requirements, and templates were
              complete and consistent with Federal requirements and guidance.
           2. Determined whether the IRS had a complete set of disaster recovery roles and
              responsibilities.
           3. Determined whether the frequency and types of testing required by the IRS and
              IRS reporting requirements were complete and consistent with Federal
              requirements.
                                                                                          Page 17
                            Corrective Actions to Address the Disaster Recovery
                                  Material Weakness Are Being Completed



               4. Determined whether the IRS conducted appropriate annual exercises and tests for
                  all Federal Information Security Management Act systems.
II.        Evaluated the effectiveness of corrective actions taken to date on open components of the
           disaster recovery material weakness.
           A. For the Disaster Recovery Compliance component, we evaluated the plans,
              procedures, and methods that the IRS will be using to conduct an internal disaster
              recovery compliance program.
           B. For the Disaster Recovery Plans component, we:1
               1. Determined whether the IRS had prepared and maintained disaster recovery plans
                  for all Federal Information Security Management Act systems using IRS plan
                  templates.
               2. Determined whether the IRS established and maintained data and processing
                  backup-recovery capability.
               3. Reviewed the process used to establish and maintain whether recovery capability
                  and outage times meet objectives.
           C. For the Technical Assessment component, we:
               1. Determined whether the IRS performed annual risk assessments.
               2. Reviewed the IRS’s process for developing a true redundancy and resiliency
                  analysis.
               3. Determined whether the IRS developed a site-based restoration vulnerability
                  analysis.
               4. Determined whether concurrence was obtained from both the MITS organization
                  and Business Operating Divisions on recovery objectives.
               5. Determined how the IRS plans to use an application or tool it procured that assists
                  in assessing and responding to a disaster.
           D. For the Metrics component, we determined whether the IRS had developed
              appropriate metrics for assessing and tracking progress in completing its corrective
              actions.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for

1
    This component was open when we performed the audit, but is now closed.
                                                                                             Page 18
                       Corrective Actions to Address the Disaster Recovery
                             Material Weakness Are Being Completed



planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Cybersecurity organization’s policies,
procedures, and practices for addressing the disaster recovery material weakness. We evaluated
these controls by interviewing staff of the Cybersecurity organization and by reviewing the
corrective actions being taken to address the components of the material weakness.




                                                                                           Page 19
                     Corrective Actions to Address the Disaster Recovery
                           Material Weakness Are Being Completed



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Danny Verneuille, Director
Carol Taylor, Audit Manager
Joan Bonomi, Senior Auditor
Richard Borst, Senior Auditor
Stasha Smith, Senior Auditor
Kasey Koontz, Auditor




                                                                                     Page 20
                   Corrective Actions to Address the Disaster Recovery
                         Material Weakness Are Being Completed



                                                                 Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Director, Security Risk Management OS:CTO:C:SRM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                         Page 21
                    Corrective Actions to Address the Disaster Recovery
                          Material Weakness Are Being Completed



                                                                           Appendix IV

   National Institute of Standards and Technology
                     Publications

NIST Special Publication 800-12, An Introduction to Computer Security: The NIST
Handbook
NIST Special Publication 800-16, Information Security Training Requirements: A Role- and
Performance-Based Model (Draft)
NIST Special Publication 800-34, Contingency Planning Guide for Federal Information
Systems
NIST Special Publication 800-37, Guide for Applying the Risk Management Framework to
Federal Information Systems
NIST Special Publication 800-50, Building an Information Technology Security Awareness
and Training Program
NIST Special Publication 800-53, Recommended Security Controls for Federal Information
Systems and Organizations
NIST Special Publication 800-55, Performance Measurement Guide for Information Security
NIST Special Publication 800-84, Guide to Test, Training, and Exercise Programs for IT
Plans and Capabilities
NIST Special Publication 800-115, Technical Guide to Information Security Testing and
Assessment




                                                                                    Page 22
                     Corrective Actions to Address the Disaster Recovery
                           Material Weakness Are Being Completed



                                                                           Appendix V

                              Glossary of Terms

               Term                                     Definition

Campus                            The data processing arm of the IRS. The campuses
                                  process paper and electronic submissions, correct
                                  errors, and forward data to the Computing Centers for
                                  analysis and posting to taxpayer accounts.
Certification and Accreditation   A comprehensive assessment of the management,
                                  operational, and technical security controls in an
                                  information system, made in support of security
                                  accreditation, to determine the extent to which the
                                  controls are implemented correctly, operating as
                                  intended, and producing the desired outcome with
                                  respect to meeting the requirements for the system.
Cybersecurity Organization        Manages the IRS’s IT Security program. It is
                                  responsible for ensuring compliance with Federal
                                  statutory, legislative, and regulatory requirements
                                  governing measures to assure the confidentiality,
                                  integrity, and availability of IRS electronic systems,
                                  services, and data. It is within the MITS organization.
End-to-End Testing                Testing that involves recovering applications and
                                  systems at the recovery location using the production
                                  environment.
Enterprise Computing Centers      IRS sites that support tax processing and information
                                  management through a data processing and
                                  telecommunications infrastructure.
Federal Managers’ Financial       Requires each Federal agency to conduct annual
Integrity Act of 1982             evaluations of its systems of internal accounting and
                                  administrative control. Each agency is also required
                                  to prepare an annual report for Congress and the
                                  President that identifies material weaknesses and the
                                  agency’s corrective action plans and schedules.



                                                                                   Page 23
                    Corrective Actions to Address the Disaster Recovery
                          Material Weakness Are Being Completed




               Term                                          Definition

Functional Exercises                  Exercises in which recovery personnel execute their
                                      roles in a simulated operational environment.
                                      Functional tests involve retrieving, loading, and
                                      validating backup tapes and files.
Material Weakness                     Internal accounting and administrative control
                                      deficiencies in operations or systems that, among
                                      other things, severely impair or threaten the
                                      organization’s ability to accomplish its mission or to
                                      prepare timely, accurate financial statements or
                                      reports.
Modernization and Information         The IRS organization that delivers IT services and
Technology Services                   solutions which drive effective tax administration to
                                      ensure public confidence.
National Institute of Standards and   A part of the Department of Commerce that is
Technology                            responsible for developing standards and guidelines
                                      for providing adequate information security for all
                                      Federal Government agency operations and assets.
Office of Management and Budget       The office within the Executive Office of the
                                      President that helps executive departments and
                                      agencies implement the commitments and priorities of
                                      the President.
Recovery Point Objective              The point in time, prior to a disruption, that data can
                                      be recovered.
Recovery Time Objective               The maximum amount of time a system can remain
                                      unavailable before there is an unacceptable impact on
                                      other systems or supported business processes.
Resiliency                            The ability to quickly adapt and recover from any
                                      known or unknown changes to the environment.
                                      Resiliency is not a process, but rather an end-state for
                                      organizations. The goal of a resilient organization is
                                      to continue mission-essential functions at all times
                                      during any type of disruption.




                                                                                         Page 24
                     Corrective Actions to Address the Disaster Recovery
                           Material Weakness Are Being Completed




              Term                                      Definition

Tabletop Exercises                Exercises that are discussion-based and take place in a
                                  classroom setting. Participants use disaster recovery
                                  plans to discuss how they would respond to a
                                  disruption scenario.




                                                                                   Page 25
      Corrective Actions to Address the Disaster Recovery
            Material Weakness Are Being Completed



                                                  Appendix VI

Management’s Response to the Draft Report




                                                            Page 26
Corrective Actions to Address the Disaster Recovery
      Material Weakness Are Being Completed




                                                      Page 27
